Office of the Inspector General      Audit Report
                                  To the Senior Vice President,
                                  Procurement




REVIEW OF CONTROLS
OVER TVA'S INVENTORY
WRITE-OFF




Audit Team                                        Audit 2005-015F
Amy R. Rush                                         June 27, 2005
Andrea L. Williams
Memorandum from the Office of the Inspector General



June 27, 2005

Paul R. LaPointe, WT 5B-K

REQUEST FOR MANAGEMENT DECISION – AUDIT 2005-015F – REVIEW OF
CONTROLS OVER TVA'S INVENTORY WRITE-OFF



Attached is the subject final report for your review and management decision. Your staff’s
comments have been incorporated in the final report. You are responsible for determining
the necessary actions to take in response to our findings. Please advise us of your
management decision within 30 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Amy R. Rush, Auditor, at (865) 632-2281 or
Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at (423) 751-7821.
We appreciate the courtesy and cooperation of your staff during this review.



Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

ARR:SDB
Attachment
cc (Attachment):
     Franklin E. Alford, SP 1A-C
     Andrew W. Holmes, WT 5C-K
     Tom D. Kilgore, ET 12A-K
     Carla F. Lewis, ET 5B-K
     Michael W. Metcalf, SP 1A-C
     Harriet A. Miller, WT 5C-K
     Richard W. Moore, ET 4C-K
     Ellen Robinson, ET 12A-K
     Robert T. Stinson, WT 5B-K
     D. LeAnne Stribley, ET 12A-K
     Randy P. Trusley, WT 5C-K
     OIG File No. 2005-015F
Office of the Inspector General                                                          Audit Report




TABLE OF CONTENTS

EXECUTIVE SUMMARY.......................................................................... i

BACKGROUND ......................................................................................... 1

OBJECTIVES, SCOPE, AND METHODOLOGY ............................... 2

FINDINGS AND RECOMMENDATIONS ............................................ 2

     CONTROL DESIGN................................................................................ 2

     OPERATING EFFECTIVENESS............................................................. 3


APPENDICES
A. DETAILED METHODOLOGY

B. DETAILED OPERATING EFFECTIVENESS




Audit 2005-015F
Office of the Inspector General                                     Audit Report



EXECUTIVE SUMMARY
As part of our fiscal year 2005 audit plan, we performed an audit to assess
the adequacy of internal controls related to the (1) identification and
reduction of unnecessary and obsolete inventory and (2) financial reporting
of the inventory write-offs. Our audit included the controls in place during
the period October 1, 2003, to February 13, 2005. During this period,
Tennessee Valley Authority (TVA) identified $13 million of materials to be
written off.

The overall controls related to the inventory write-off process mitigate the
risk of obsolete, scrap, and surplus materials remaining in inventory.
However, the controls related to the identification and reduction of
inventory and financial reporting could be improved. In summary, we
found:
•   The Inventory Management Policy does not (1) address the review of
    Procurement's Slow Moving Inventory Report, which was one of the key
    methods used to identify materials for write-off; and (2) define how often
    the reviews for surplus, scrap, and obsolete materials are to be
    performed.
•   TVA Accounting Practice, Accounting for Materials and Supplies
    Inventories, does not address the review of write-off monitoring reports
    by TVA Inventory Accounting, which we conclude is a key control
    activity being conducted.
•   Business unit reviews for surplus/obsolete inventory were being
    conducted as required. However, surplus/obsolete items were not
    always identified and written off.
•   No signatures were obtained from business units for the approval of
    inventory write-offs. Approval signatures were required for materials
    written off after January 10, 2005.
•   Inventory purchases were made for the same materials identified as
    surplus and being held by TVA Investment Recovery. The majority of
    these purchases could be attributed to automatic requisition items that
    are not reviewed by Procurement.
•   Quarterly inventory reserve calculations were incorrect due to the
    exclusion of certain spare parts from the total on-hand quantities.
    Corrective actions have been completed.
In addition to the corrective actions already taken, we recommend the
Senior Vice President, Procurement, and the TVA Controller take additional
actions, as described in the report, to improve controls related to the
identification and write-off of surplus, scrap, and obsolete inventory.
Audit 2005-015F                                                           Page i
Office of the Inspector General                                                              Audit Report



BACKGROUND

As of September 30, 2004, the Tennessee Valley Authority (TVA) had
approximately $290 million in materials and supplies inventory.1 TVA
periodically reviews the inventory by category and usage to determine
surplus, obsolete, and/or scrap materials, as defined below:

•     Materials that are no longer needed or stocked in excessive quantities
      are identified as surplus.
•     Materials that are no longer usable for its intended purpose are
      identified as obsolete.
•     Materials that cannot be used due to expired shelf life or breakage or
      items that have no value from a surplus standpoint are determined to be
      scrap.

For fiscal year (FY) 2004 and to date FY 2005,2 TVA identified $13 million
of materials to be written off. TVA Investment Recovery generally disposes
of surplus and obsolete items through redeployment, sales, and negotiated
transfers. Scrap materials are disposed of as appropriate.

Multiple organizations are involved in identifying and writing off
unnecessary and obsolete inventory. TVA business units, including
Nuclear, Fossil Power, Transmission/Power Supply, and River System
Operations and Environment, are responsible for identifying surplus,
obsolete, and/or scrap materials and approving these materials for
write-off. The business units identify the materials through reviewing slow
moving inventory reports, overmax reports,3 design change notices
(DCNs), shelf life expiration dates, and inventory cycle counts. Once the
material is identified for write-off:

•     Business units communicate to Procurement the materials to be written
      off.
•     Procurement enters key information in the inventory tracking system
      and handles the initial segregation and disposition of the materials.

In addition, Procurement prepares an inventory obsolescence calculation
quarterly for review and approval by Accounting and Performance

1
    For the purpose of this report, the term "materials" refers to materials and supplies inventory only.
    Our review did not address coal, oil, and tire-based fuel inventories.
2
    The period of our review is October 1, 2003, through February 13, 2005 (FY 2004 and to date
    FY 2005).
3
    Overmax reports show materials that are above the facility's target maximum amount of materials
    to keep on hand.
Audit 2005-015F                                                                                   Page 1
Office of the Inspector General                                    Audit Report


Reporting (APR), TVA Controller. APR also monitors write-off activity and
posts adjustments to the general ledger.


OBJECTIVES, SCOPE, AND METHODOLOGY
As part of our FY 2005 audit plan, we performed an audit to assess the
adequacy of internal controls related to the (1) identification and reduction
of unnecessary and obsolete inventory and (2) financial reporting of the
inventory write-offs. The scope of the audit included a review of controls
over the inventory write-off process and write-off transactions posted during
FY 2004 and to date FY 2005. See Appendix A for detailed methodology.


FINDINGS AND RECOMMENDATIONS
We determined the overall controls related to the inventory write-off process
mitigate the risk of obsolete, scrap, and surplus materials remaining in
inventory. However, we found the control design and the operating
effectiveness of the controls could be improved related to the identification
and reduction of surplus, scrap, and obsolete materials. Furthermore, we
found the operating effectiveness could be improved related to the financial
reporting of the inventory write-offs.

CONTROL DESIGN

With regard to control design, we found the TVA Inventory Management
Policy does not specifically address how often reviews for surplus, scrap,
or obsolete materials are to be conducted. Also, one of the key methods
used to identify materials for write-off, the review of the Procurement Slow
Moving Inventory Report, is not specifically addressed in the policy. Other
identification methods could also be more clearly defined.

The TVA Accounting Practice, Accounting for Materials and Supplies
Inventories, does not reflect review of write-off monitoring reports by TVA
Inventory Accounting, which we conclude is a key control activity being
conducted.

We recommend the:

•   Senior Vice President, Procurement, ensure the Inventory Management
    Policy specifically (1) states that slow moving inventory reports,
    overmax reports, and DCNs are reviewed for surplus material; and
    (2) defines how often reviews for surplus materials are to be conducted.

Audit 2005-015F                                                         Page 2
Office of the Inspector General                                     Audit Report



•   TVA Controller ensure that TVA Accounting Practice, Accounting for
    Materials and Supplies Inventories, accurately reflects monitoring activities
    being performed by APR.

OPERATING EFFECTIVENESS
Findings and recommendations related to operating effectiveness are
contained in Appendix B.




Audit 2005-015F                                                          Page 3
                                                                                 APPENDIX A
                                                                                  Page 1 of 3


                            DETAILED METHODOLOGY
As part of our fiscal year (FY) 2005 audit plan, we performed an audit to
assess internal controls related to the (1) identification and reduction of
unnecessary and obsolete inventory and (2) financial reporting of the
inventory write-offs. The scope of the audit included a review of controls
over the inventory write-off process and write-off transactions posted during
FY 2004 and to date FY 2005.1

CONTROL DESIGN ADEQUACY

We assessed the adequacy of the control design related to (1) identification
and reduction of unnecessary and obsolete inventory and (2) financial
reporting of the inventory write-offs by:

•     Interviewing employees in various Tennessee Valley Authority (TVA)
      organizations, including Nuclear, Fossil Power, Transmission/Power
      Supply, River System Operations and Environment, Procurement, and
      Accounting and Performance Reporting (APR).
•     Reviewing inventory write-off process flowcharts, process descriptions,
      policies and procedures, and other information provided by
      Procurement and APR.
•     Observing and documenting the inventory write-off process and
      updating flowcharts and process descriptions to more clearly depict the
      process.
•     Identifying key risks, key control objectives, and key control activities.

OPERATING EFFECTIVENESS OF KEY CONTROL ACTIVITIES

We assessed the operational effectiveness of inventory write-off and
financial reporting controls by interviewing applicable TVA employees,
reviewing supporting documentation, and reviewing transactions for the
period October 1, 2003, through February 13, 2005. Specifically, we:

•     Obtained explanations and/or supporting documentation for 592 of the
      299,115 catalog identification numbers (CAT IDs)3 that we identified as
      slow moving items that were not written off.4
1
    The period of our review is October 1, 2003, through February 13, 2005 (FY 2004 and to date
    FY 2005).
2
    We used attribute sampling methodology to identify sample sizes, and the sample selections were
    made randomly. Each sample size was based on a 5 percent maximum tolerable error rate and a
    5 percent risk of incorrect acceptance.
3
    CAT IDs are unique numbers identifying materials in TVA's catalog of materials.
4
    We compared slow moving reports and write-off reports to obtain the population of 299,115 CAT
    IDs that were not written off.
                                                                                APPENDIX A
                                                                                 Page 2 of 3


•   Obtained explanations for why materials were not surplused for 595 of
    the 14,369 CAT IDs included on Procurement's overmax6 reports. We
    also valued the materials on the overmax report by location and aged
    the inventory.
•   Interviewed nonnuclear design change notice (DCN)7 initiators for 30 of
    the 100 nonnuclear DCNs to determine whether surplus materials were
    identified.
•   Obtained FYs 2003, 2004, and 2005 write-off reports and trended
    write-offs by location. We obtained explanations for the facilities having
    the highest dollar amount and number of write-offs.
•   Reviewed write-off approval documentation for 598 of the 8,236 CAT
    IDs included on Procurement's inventory write-off reports.
•   Obtained explanations and/or supporting documentation for 509 of the
    231 CAT IDs which represented materials that were written off and
    subsequently purchased.10 The materials were purchased and not
    transferred from TVA Investment Recovery.
•   Assessed inventory demand and whether materials could be used at
    other TVA locations by reviewing PassPort11 information for 5912 of the
    8,236 CAT IDs included on Procurement's inventory write-off reports.
•   Verified write-offs to the TVA general ledger for 5913 of the 8,236 CAT
    IDs included on Procurement's inventory write-off reports.
•   Obtained and reviewed inventory obsolescence calculations to
    determine if TVA's estimate is reasonable and that adjustments are
    accurately calculated.




5
   Ibid; see footnote 2 on page 1.
6
   Overmax reports show materials that are above the facility's target maximum amount of materials
   to keep on hand.
7
   For the review of DCNs, our population was determined based on Stop & Go sampling
   methodology and not the attribute sampling methodology used in the other sample size
   selections. We did not review nuclear DCNs because we could not determine the population of
   the DCNs.
8
   Ibid; see footnote 2 on page 1.
9
   Ibid; see footnote 2 on page 1.
10
   We compared FYs 2004 and 2005 purchasing and inventory write-off reports to identify the
   population of 231 CAT IDs that represented materials purchased after the write-off date.
11
   PassPort is a TVA system that supports contracting, ordering, inventory management, and
   receiving and payment of inventory.
12
   Ibid; see footnote 2 on page 1.
13
   Ibid; see footnote 2 on page 1.
                                                              APPENDIX A
                                                               Page 3 of 3


This audit was performed in accordance with generally accepted
government auditing standards. Although we did not test for compliance
with laws and regulations, nothing came to our attention during the audit
that indicated noncompliance with applicable laws or regulations.
DETAILED OPERATING EFFECTIVENESS

Control Objective: All surplus, scrap, and obsolete materials are identified by Tennessee Valley Authority (TVA) business units
and written off.
Control Activities                                                        Findings                                                          Recommendations
                           The current TVA Inventory Management Policy states, "Material that the facility no longer needs             1. The Senior Vice
                           or material stocked in excessive quantities is identified as surplus for use by other locations and            President, Procurement,
                           subsequent disposition by Investment Recovery. The Inventory Specialist or designee                            ensure the reviews
                           coordinates the review for surplus/obsolete material, including Site Inventory Review Committee                accurately identify and
                                  1
                           (SIRC) review as appropriate, and designates surplus material for a facility with a quantity type              initiate the write-off of
                           of 'SU.'"                                                                                                      surplus, scrap, and
                                                                                                                                          obsolete inventory.
                           We determined that reviews for surplus/obsolete material were being performed as required.
                           However, the reviews did not always identify and initiate the write-off surplus items. We
                           reviewed slow moving inventory reports, overmax reports, and design change notices (DCNs) to
                           ensure that surplus items were identified by Procurement and the business units. We found that
                           surplus items were not always identified and written off. Specifically, we found:
Surplus, scrap, and
obsolete materials          •   Three of the 59 catalog identification numbers (CAT IDs) we reviewed that represented
are identified by TVA           materials identified on Procurement's slow-moving inventory reports should have been
business units.                 written off. Procurement personnel informed us that the items would be written off.
                                Specifically, (1) one of the items had no usage within the past five years, (2) another item
                                was over the facility's target maximum of inventory on hand, and (3) the other item was
                                determined as no longer needed.2
                            •   Two of the 59 CAT IDs that represented materials on Procurement's overmax reports
                                should have been written off. Procurement personnel informed us that these materials
                                have not been used since PassPort3 came on-line in 2001.4
                            •   Two of the 30 DCNs we reviewed did not contain information regarding the identification of
                                surplus/scrap materials; however, we contacted personnel in the business unit and found
                                that surplus/scrap materials were identified during the design change.

                           We also aged the overmax reports by facility and found that 310,858 items totaling $1.3 million
                           had been in overmax status 4 to 5½ months.




                                                                                                                                                                         APPENDIX B
                                                                                                                                                                          Page 1 of 5
1
    The SIRC is a committee composed of Procurement personnel and facility management to address items impacting inventory budgets.
2
    Procurement stated, "We are reviewing slow moving reports however, due to the size of the reports, the weekly SIRC meetings can only address a few items each
    week. Therefore, we have to prioritize the lists in order to ensure timely reviews."
3
    PassPort is a TVA system that supports contracting, ordering, inventory management, and receiving and payment of inventory.
4
    Procurement personnel stated that because an item is in overmax status does not necessarily indicate an item should be written off. The plant may have use for the
    items in later work weeks or outages.
DETAILED OPERATING EFFECTIVENESS

Control Objective: Only valid materials identified as surplus, scrap, and obsolete are written off.

Control Activities                                                Findings                                                     Recommendations

                        Before Procurement can initiate the write-off of surplus, obsolete, or scrap materials,            2. The Senior Vice President,
                        approvals must be obtained from the business units. TVA's Inventory Management Policy                 Procurement, ensure
                        prior to January 10, 2005, did not specify that documentation of business unit approvals for          compliance with TVA's
                        inventory write-offs should be maintained. On January 10, 2005, TVA's Inventory                       Inventory Management
                        Management Policy was revised to state that "The Site Procurement Manager must confirm                Policy regarding inventory
                        through documentation and signature that the Business Unit Management authorization has               write-off approvals.
                        been obtained and ensure that these authorizations are maintained as permanent records."

                        •   We found that documentation of approvals was not maintained for the 50 CAT IDs in our
                            sample that were written off prior to the January 10, 2005, policy revision. However, we
                            contacted business unit personnel, and they attested to the write-off approval for 43 of the
                            CAT IDs. For the remaining seven CAT IDs, business unit and/or Procurement personnel
Surplus, scrap, and         stated:
obsolete materials to
be written off are          − One could not be verified as approved for write-off because the materials are not
approved by TVA               normally written off. The business unit personnel believed the material should not
business units.               have been written off because the represented materials are currently used at the
                              facility.
                            − One was supposed to have been approved for write-off in the SIRC meeting; however,
                              there was no evidence in the meeting minutes the material was brought up for review.
                            − Five were approved verbally, but Procurement could not specifically identify the
                              individual in the business unit who approved the write-off of the material. Therefore,
                              we could not verify the verbal approval.

                        •   We found that no authorization signatures were obtained, as required by the policy, for
                            the nine CAT IDs in our sample that were written off after the January 10, 2005, policy
                            revision. Required documentation was maintained for seven of the nine CAT IDs;
                            however, the documentation did not include evidence of approval.




                                                                                                                                                           APPENDIX B
                                                                                                                                                            Page 2 of 5
DETAILED OPERATING EFFECTIVENESS

Control Objective: Only valid materials identified as surplus, scrap, and obsolete are written off.

    Control Activities                                                      Findings                                                Recommendations
                              We compared fiscal years 2004 and 2005 purchasing and inventory write-off reports and             3. The Senior Vice President,
                              identified a population of 231 CAT IDs that represented purchases made for the same items            Procurement, consider
                              being held by TVA Investment Recovery. For 29 of the 50 CAT IDs we reviewed, we found                implementing additional
                              that materials could have been obtained from Investment Recovery and used by TVA facilities.         controls to ensure that
                              Specifically, we found items were written off and subsequently purchased for:                        available surplus materials
                                                                                                                                   are utilized before
                              • Eighteen CAT IDs totaling $13,500. These CAT IDs were automatic (auto) requisition or              materials are purchased
                                blanket purchase order (BPO) items. Requests for auto requisition or BPO materials are             and/or reemphasize the
                                electronically sent to the vendor. Procurement personnel do not receive and are not able           importance of transferring
                                to review material requests for these items.                                                       items from Investment
                                                                                                                                   Recovery before
                              • Six CAT IDs totaling $17,996. Procurement personnel informed us the items could not be             purchasing.
                                                     5
                                located at Hartsville at the time of the purchase. Procurement personnel also stated that
                                one CAT ID totaling $15,603 was later found in a different location at Hartsville than the
Surplus materials are
                                one shown in PassPort.
identified as being
needed by other TVA           • Four CAT IDs totaling $1,371. Procurement personnel could provide no explanation for
locations.                      why the items were purchased and not transferred. Procurement personnel also informed
                                us that one CAT ID totaling approximately $300 has since been transferred from Hartsville.
                              • One CAT ID totaling $550. Procurement personnel stated the facility needed more of the
                                material than what was located at Hartsville; therefore, they ordered the material instead of
                                transferring it.

                              For the remaining 21 CAT IDs we reviewed totaling $63,052, we found the materials were not
                              transferred for valid reasons including expired shelf life, flood damage, and materials ordered
                              prior to when they showed up at Hartsville.

                              We also assessed inventory demand and whether inventory could be used at other TVA
                              locations by reviewing PassPort information for 59 CAT IDs included on Procurement's




                                                                                                                                                                 APPENDIX B
                              inventory write-off reports. We found no instances where the materials could be used at other




                                                                                                                                                                  Page 3 of 5
                              locations.




5
     TVA's Hartsville facility contains warehouses that hold surplus materials received by TVA's Investment Recovery.
DETAILED OPERATING EFFECTIVENESS

Control Objective: Write-off transactions are accurately entered and processed.
Control Activities                                               Findings                                                 Recommendations
PassPort                We reviewed 59 CAT IDs to determine if inventory on Procurement's inventory write-off report   None.
automatically debits    was accurately recorded on TVA's general ledger. We found the write-off for the materials
the reserve and         represented by the 59 CAT IDs was accurately posted to the general ledger.
credits the inventory
account when
inventory is written
off.




                                                                                                                                            APPENDIX B
                                                                                                                                             Page 4 of 5
DETAILED OPERATING EFFECTIVENESS

Control Objective: Inventory write-off allowance calculations are reasonable, and adjustments are accurately calculated.
Control Activities                                                              Findings                                                 Recommendations
                             The TVA Accounting Practice, Accounting for Materials and Supplies Inventories, states that               None.
                             Procurement is responsible for reviewing materials on a quarterly basis for obsolescence. A
                                                                                                            6
                             probability factor for obsolescence is assigned based on the type of material and historical usage
                             data. The potential write-off allowance is adjusted quarterly for current inventory obsolescence.

                             Procurement prepares the inventory obsolescence calculation for Chief Financial Officer's (CFO)
                             review and approval. To obtain the potential inventory available for write-off, Procurement obtains
                             TVA's total quantity of material on hand less certain critical spares.7 A probability factor is then
                             assigned to the potential available inventory to obtain the total potential write-off for that quarter.
Inventory reserves
(obsolescence) must          We found that Procurement's calculation of potential inventory available for write-off removed
be established in            certain critical spares that were not included in the total quantity on hand. This calculation error
accordance with              caused the total potential write-off amount for each quarter to be greater than the amount
written policy and           provided to the CFO. The calculations were approved by Accounting and Performance Reporting.
Generally Accepted
                             The calculation error caused the quarterly adjustment to the inventory allowance account to be
Accounting
                             incorrect. Specifically, we noted:
Principles. The
reserves must be             •   The December 2003 adjustment was ($3.538M) and should have been ($3.765M); a
reviewed quarterly               difference of ($227,321).
for accuracy and
reasonableness and           •   The March 2004 adjustment was ($2.351M) and should have been ($2.574M); a difference of
adjusted                         ($222,698).
accordingly.                 •   The June 2004 adjustment was $2.052M and should have been $1.814M; a difference of
                                 ($238,000).
                             •   The September 2004 adjustment was ($7.818M) and should have been ($8.049M); a
                                 difference of ($230,650).
                             •   The December 2004 adjustment was ($3.920M) and should have been ($4.229M); a
                                 difference of ($309,001).




                                                                                                                                                           APPENDIX B
                             The Manager of Inventory Accounting stated that based on our review the issue has been




                                                                                                                                                            Page 5 of 5
                             corrected with Procurement, and the quarterly adjustment is now correct.



6
    The different types of material are critical spares, spares, and consumables/bulk commodities.
7
    These items are critical spares that are not likely to be written off, such as storm restoration materials or turbines.
